No. _ _ _ _ __

IN THE
SUPREME COURT OF THE UNITED STATES
DENNIS SENA,
Petitioner
V.

STEVEN KENNEWAY, SUPERINTENDENT,
Respondent
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to the provisions of Rule 39 of the Rules of this Comi, the petitioner moves to
file the attached Petition for Writ of Ce1iiorari to the United States Court of Appeals for the First
Circuit without prepayment of costs and to proceed informa pauperis.
The petitioner was represented in the United States Court of Appeals for the First Circuit
by counsel appointed pursuant to the Criminal Justice Act (18 U.S.C. ยง3006A).

Elizabeth L. Prevett
Attorney for Petitioner

Dated: October 8, 2021

